‘O~
|
2311 Douglas Street COCKLE 8

E-Mail Address:
Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
MARK SHUMSKI,
Petitioner,
v.
LORIE DAVIS,

Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3914 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary ., lf, x ve Chk
State of Nebraska ‘,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

 

39224
